No..

IN THE
SUPREME COURT OF THE UNITED STATES

Abdul-Mu’min. (F/k/a Travis-Jackson: Marron) -PETITIONER
VS
COMMONWEALTH OF VIRGINIA -RESPONDENTS
PROOF OF SERVICE
I. Abdul-Mu’min. (F/k/a Travis-Jackson: Marron). do swear or declare that on this
, 20_2£_, as required by Supreme Court Rule 29, I
date
have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Commonwealth of Virginia
Office of the Attorney General
Mark Herring
202 North 9th Street
Richmond, Virginia 2 3 2 >
I declare under penalty of perjury, pursuant to 28 U.S.C. §1746, that the foregoing
is true and correct.
Executed on

, 20 ^

#ji fo<)hP>

p-efoJfce.

&tC'y&h'^A____

(Signature)

